        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Department of Energy's
American Recovery and
Reinvestment Act – California State
Energy Program




OAS-RA-11-10                               July 2011
                                  Department of Energy
                                    Washington, DC 20585
                                          July 28, 2011


MEMORANDUM FOR THE ACTING ASSISTANT SECRETARY FOR ENERGY
               EFFICIENCY AND RENEWABLE ENERGY



FROM:                    George W. Collard
                         Assistant Inspector General
                           for Audits
                         Office of Inspector General
SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         American Recovery and Reinvestment Act – California State Energy
                         Program"
BACKGROUND
The Department of Energy's Office of Energy Efficiency and Renewable Energy (EERE)
provides grants to states, territories and the District of Columbia (states) through the State
Energy Program (SEP). Federal funding, based on a grant formula that considers the population
and energy consumption in each state, amounted to $25 million for Fiscal Year (FY) 2009 for the
entire Program. The American Recovery and Reinvestment Act of 2009 (Recovery Act)
expanded the SEP by authorizing an additional $3.1 billion to states using the existing grant
formula. EERE grant awards to states were designed to achieve SEP Recovery Act objectives to
preserve and create jobs, save energy, increase renewable energy sources, and, reduce
greenhouse gas emissions.
The California Energy Commission (Commission) received a SEP Recovery Act grant of $226.1
million. The Commission planned to use $193 million of these funds to provide energy
efficiency retrofits for 29,000 residential and 5,500 commercial buildings and to create 2,100
jobs. Over $80 million was to provide loan capital for business equipment and public building
retrofits while $113 million was allocated to incentive programs to encourage energy efficiency
retrofits of existing residential and commercial buildings. The remaining $32.4 million was
provided for program management and green jobs training. EERE program guidance
emphasized that states were responsible for administering the SEP and for implementing controls
over the use of Recovery Act funds.
Because of the states' role in the implementation of the Recovery Act, we initiated this review to
determine whether California was effectively administering its SEP Grant.
RESULTS OF AUDIT
We found that the Commission experienced delays in executing its plan to spend SEP Recovery
Act funds. In fact, as of June 2, 2011, 2 years after SEP funds became available in June 2009,
California had spent only $68 million of its $226.1 million award. Spending was primarily
confined to direct loans for state and municipal building retrofits and green jobs training.
Further, although the Commission had made progress in resolving weaknesses revealed by
several SEP specific audits, it had not completed all necessary actions to monitor sub-recipients
of SEP funds. Finally, we determined that EERE had not effectively monitored the
Commission's actions to correct previously discovered program weaknesses.

                             State Energy Program Spending Delays

Numerous factors contributed to delays the Commission experienced in its implementation of its
energy efficiency building retrofit projects. Initially, the Commission planned to award building
retrofit loans and contracts by February 1, 2010; however, delays occurred as the Commission
worked to comply with Recovery Act specific requirements. Regulator concerns and lawsuits
also delayed the Commission's plans to offer incentives to retrofit residential and commercial
buildings.

According to knowledgeable officials, the Commission was slow in expending about
$193 million for business equipment and public building retrofits because of the time required to
meet regulatory requirements. Specifically, Commission officials stated that the Recovery Act
established new requirements that had previously not been applicable to activities carried out
under the annual grant award. Further, the increase in funding available under the Recovery Act
SEP grant allowed the Commission to plan projects that required greater regulatory compliance
than activities previously carried out under the Program.

Commission officials told us that the time required to ensure regulatory compliance delayed the
retrofit projects as they worked with EERE National Environmental Policy Act (NEPA)
Compliance Officers, the Department of Labor, and California's State Historic Preservation
Office to get the necessary approvals. For example, compliance with the Davis-Bacon Act
required ensuring that local prevailing wage rates were available and making sure that provider
payroll systems could support periodic and certified payroll reporting requirements. Planned
retrofit projects often required additional reviews to ensure compliance with NEPA and the
National Historic Preservation Act; actions that had not been required for previous activities
which were generally limited to administrative functions such as providing technical assistance
and establishing energy efficiency standards.

Additionally, regulator concerns, as well as litigation, led the Commission to cancel its plan to
use a financing instrument known as Property-Assessed Clean Energy (PACE) as an incentive
for residential and commercial energy efficient building retrofits. PACE is a local-government
energy financing option that allows property owners to finance energy improvements and repay
the loan over 20 years through a special property tax assessment. PACE was a key component of
the Commission's plans to expend $110 million on incentives to retrofit residential and
commercial buildings. The Commission planned to execute five contracts by February 1, 2010,
to help local governments provide PACE financing for residential and commercial retrofits.
Energy cost savings from the retrofit were to be used to pay back the PACE loan. Several of the
planned residential and commercial program contracts identified PACE as a major source of
financing.




                                                2
Delays occurred in May 2010 as a result of a lawsuit that protested the Commission's award
selections and the Federal Housing Finance Agency and other regulators expressed concerns that
PACE loans posed risks for existing lenders because the loans have a priority lien over existing
mortgages. Due to the lawsuit and concerns by regulators, the Commission, in July 2010,
cancelled plans to award the five contracts. The Commission executed a contract in
October 2010, to replace PACE financing with a state-wide energy financing mechanism.
Concerns and litigation about PACE effectively delayed the Commission's plans to incentivize
residential and commercial retrofits and expend the $110 million dedicated to this purpose by
almost a year after originally planned.

Given the delays experienced implementing the various SEP initiatives, the Commission is at
risk of not spending its Recovery Act funding by April 30, 2012, as required by the grant award,
and meeting its building retrofit goals.

                                      Program Safeguards

Although the Commission had made progress in correcting previously identified weaknesses, it
had not completed all necessary actions to monitor SEP fund sub-recipients. Further, EERE had
not effectively monitored the Commission's actions to correct SEP internal control weaknesses.

In 2009 and 2010, the California State Auditor (State Auditor) and the Commission's contracted
auditor, respectively, identified internal control weaknesses with the Commission's readiness to
manage Recovery Act funds. Specifically, in December 2009, the State Auditor reported that the
Commission had not developed an adequate system of internal controls to administer SEP
Recovery Act funds. For example, the State Auditor found that the Commission needed better
controls to collect and report data on the performance of the program and that lack of controls
would increase the risk that the funds would not be used appropriately.

In response, the Commission contracted with an auditor to assess the Commission's and sub-
recipient's controls. The State Auditor performed a June 2010 follow-up review and reported
concerns that sub-recipient monitoring procedures were not complete. In July 2010, the
Commission's contract auditor also reported that the Commission faced challenges to ensure its
processes, procedures, and internal controls were effective in areas such as monitoring sub-
recipients. Finally, in March 2011, the State Auditor reported that the Commission had partially
completed corrective actions to improve its control structure over the use of Recovery Act funds.
Among other things, the State Auditor noted that the Commission had hired an audit contractor
that would conduct risk assessments and audits of sub-recipients.

We also found that EERE had not adequately monitored the Commission's efforts to resolve
previously identified weaknesses. EERE told us that the December 2009 State Auditor report
was forwarded to Golden Field Office (GFO) staff less than one week after its release, requesting
GFO's response to the report. However EERE told us it could not document what, if any,
follow-up steps were taken. Officials from GFO, EERE's Field Performance Management
Office of Field Operations (Headquarters) and National Energy Technology Laboratory (NETL)
also performed reviews of the Commission's SEP program in August 2010, but according to
EERE, did not appear to be aware of the State Auditor's December 2009 report. In fact, GFO



                                                3
and NETL officials were unaware of the State Audit report until we brought the audit findings to
their attention in September 2010 and January 2011, respectively. In addition to audit follow-up
coordination problems, we also observed apparent inconsistencies related to monitoring and
oversight. As part of the August 2010 monitoring visit, GFO and Headquarters Project Officers
noted that the Commission's sub-recipient monitoring manual was incomplete and that sub-
recipient monitoring visits had not yet been conducted. However, the review concluded that the
Commission's monitoring of sub-recipients was adequate, issued no findings and did not
recommend follow-up.

Headquarters officials told us that, the Office of Management and Budget (OMB) selected a few
state audit reports including California to be a part of an OMB Pilot Program for Single Audits.
As a result, EERE Headquarters issued a memorandum in October 2010, requesting that the
Commission respond to GFO with an updated status of its actions to correct the findings. In
November 2010, the Commission responded to GFO, noting that it had completed actions to
award all SEP funds but had not completed procedures and plans to monitor and assess sub-
recipient internal controls and energy savings. As of January 2011, Headquarters, GFO and
NETL had not performed any site monitoring specifically to ensure that the Commission had
effectively resolved all the weaknesses reported by the State Auditor and the Commission's
auditor. EERE Headquarters officials told us that they subsequently visited California in March
2011, and were still concerned about the Commission's documentation of its sub-recipient
monitoring process.

We concluded that the roles and responsibilities for following up on the weaknesses were not
defined and coordinated between Headquarters, GFO and NETL. Although Headquarters'
October 2010 memorandum instructed the Commission to send its response to GFO, it did not
define GFO's role in the resolution process. EERE Headquarters officials told us they had
coordinated reaction to the State Auditor findings with project and contracting officers as well as
program office staff, instructing them to review the findings, recommendations, corrective
actions and management decisions and to provide feedback on concurrences and non-
concurrences. GFO officials, however, told us that they believed it was NETL's responsibility to
follow up on audit report findings. Conversely, NETL officials told us that they only follow up
on Office of Management and Budget A-133 Single Audit Act financial statement audits. EERE
management stated that it has continuously reviewed and updated the roles and responsibilities
of project officers engaged in monitoring. EERE also stated that in 2010, a working group,
which involve cross functional groups, developed a Single Audit Resolution and Management
Decision Process. According to EERE, procedures from this process were implemented, tested
and improved between January and March 2011.

                                         Program Impacts

Spending delays and the control deficiencies may impact California's ability to meet SEP
Recovery Act goals. Although California estimated that the $193 million Recovery Act
investment would result in estimated annual energy savings of 2.7 million British thermal units
through energy efficiency retrofits for 29,000 residential and 5,500 commercial buildings and
create 2,100 jobs, by April 30, 2012, the Commission had reported only 210 jobs created and
only 85 commercial and residential retrofits had been completed as of December 31, 2010. In
fact, only 30 retrofits were completed in the last quarter of 2010. With close to a year remaining


                                                 4
in the grant, the Commission would have to increase its completion rate exponentially, to
approximately 5,800 residential, and 1,083 commercial unit retrofits each quarter to reach its
retrofit and annual energy savings goals.

In a May 2011 update, the Commission indicated that the SEP program would achieve less than
half of the energy efficiency retrofits presented in the state plan. The Commission reduced its
estimate of the number of commercial and residential retrofits the SEP expects to complete from
34,500 to 16,629. The Commission also stated that the number of completed commercial and
residential retrofits increased from 85 as of December 2010 to 1,276 as of May 20, 2011. SEP
sub-recipients had 3,128 projects underway and expected to complete 16,629 retrofits during the
SEP performance period. Improvements in EERE's oversight and monitoring of California's use
of SEP funds, however, are needed to ensure that previously identified internal control
weaknesses are resolved and the effective use of such funds in achieving Recovery Act
objectives.

RECOMMENDATIONS

To ensure that the issues addressed in this report are resolved and in light of California's program
results to date, we recommend that the Acting Assistant Secretary for Energy Efficiency and
Renewable Energy:

    1. Establish and implement clearly defined roles and responsibilities to ensure that the
       Commission's internal control weaknesses are resolved;

    2. Aggressively monitor the Commission's progress toward achieving its SEP Recovery
       Act goals and take appropriate action to maximize the achievement of those goals; and,

    3. Determine whether completion of the Commission's planned actions are possible, and,
       as appropriate, reallocate funds to other projects if necessary.

MANAGEMENT AND AUDITOR COMMENTS

EERE management concurred with the findings and recommendations and stated that it will
continue to closely oversee the work carried out under the California SEP by continuing to
conduct regular onsite visits in addition to communicating frequently with the State.
Management agreed that sufficient and well understood internal controls and procedures are
needed to ensure that grant funds are used as intended, and stated that it has developed and
deployed a multi-layered monitoring plan that facilitates feedback between grantees and
Department of Energy staff. The monitoring plan also tracks findings across grantees to identify
any systemic trends. Management indicated that it was committed to acting quickly to address
any issues, including increasing oversight and providing technical assistance and procedural
recommendations. To that end, management provided an action plan to address our
recommendations.

In particular, management stated that it had implemented an Audit Resolution and Management
Decision process that formalized staff roles and responsibilities. Management also stated that it
had engaged in periodic outreach calls to monitor grantees' progress toward achieving the goals

                                                 5
of the program and to offer technical advice. Management stated that, during such an outreach
call, it had requested the Commission to identify monetary targets and other metrics to ensure
compliant completion of Recovery Act SEP activities in California. Management's verbatim
comments are included in Attachment 3.

Management's comments and planned actions were responsive to the recommendations. As
appropriate, management should consider incorporating the changes/improvements in the control
structure for the State of California into best practices or lessons learned guides that could be
shared among other grantees.

Attachments

cc: Deputy Secretary
    Associate Deputy Secretary
    Acting Under Secretary for Energy
    Deputy Assistant Secretary for Energy Efficiency, Office of Energy Efficiency and
      Renewable Energy
    Chief of Staff




                                                6
                                                                                   Attachment 1

                      OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of our audit was to determine whether the California Energy Commission was
effectively administering its State Energy Program (SEP) Grant.

SCOPE

The audit was performed between April 2010 and May 2011. We conducted work at the
California Energy Commission (Commission), located in Sacramento, California; and, the
Golden Field Office (GFO), in Golden, Colorado.

METHODOLOGY

To accomplish the audit objective, we:

       Reviewed laws and regulations, SEP Formula Grants Recovery Act Funding Opportunity,
       and Office of Management and Budget policies and procedures relevant to the
       management of the Department of Energy's (Department) Office of Energy Efficiency
       and Renewable Energy (EERE) American Recovery and Reinvestment Act of 2009
       (Recovery Act) funding;

       Reviewed grant award files, terms and conditions, and correspondence documents;

       Held discussions with California officials at the Commission, Recovery Act Task Force,
       State Auditor, and the Department of General Services;

       Interviewed EERE officials at GFO, the National Energy Technology Laboratory, and
       EERE's Field Performance Management Office of Field Operations;

       Reviewed Property-Assessed Clean Energy correspondence from federal regulators and
       subsequent actions by California communities;

       Evaluated the California SEP Recovery Act state plan, award proposals and contracts;

       Reviewed EERE and California policies and procedures, reports and correspondence
       associated with SEP projects and requests for proposals; and,

       Performed transaction testing for a sample of SEP Recovery Act transactions.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. We assessed the significant



                                               7
                                                                        Attachment 1 (continued)


internal controls and found that measures specifically related to accounting for the Recovery Act
SEP program had not been fully established. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed at the time of
our audit. We did not rely upon computer processed data to accomplish our audit objective.

An exit conference was held with Department and Commission officials on July 14, 2011.




                                                8
                                                                             Attachment 2




  RELATED OFFICE OF INSPECTOR GENERAL AUDIT REPORTS


The Department of Energy's American Recovery and Reinvestment Act – Massachusetts
State Energy Program (OAS-RA-11-06, March 2011). The audit found that
Massachusetts had not completed its sub-recipient oversight plans and procedures.
Although Massachusetts planned to perform monitoring site visits to all direct sub-
recipients and a select number of second-level sub-recipients, it had not defined when
and how often such visits would occur. The audit also concluded that Massachusetts'
obligations were overstated. For example, as of June 24, 2010, Massachusetts' State
Energy Program (SEP) American Recovery and Reinvestment Act of 2009 (Recovery
Act) funds were reported as 97 percent obligated even though at least 43 percent, or
approximately $23.8 million, did not have executed contracts in place.

Management Controls over the Department of Energy's American Recovery and
Reinvestment Act – Michigan State Energy Program (OAS-RA-10-18, September 2010).
The audit found that Michigan had established adequate internal controls over selecting
Recovery Act projects and accounting for related expenditures. However, the
accomplishment of Recovery Act goals could be impeded by Michigan's lack of
effective procedures for assessing and monitoring high-risk SEP projects. Although
Michigan officials stated that they planned to develop a schedule for performing on-site
monitoring of high-risk recipients, they had not performed a risk assessment to identify
such projects. Further, the Bureau of Energy Systems had not developed guidance for
performing on-site monitoring of high-risk sub-recipients.

Status Report: The Department of Energy's State Energy Program Formula Grants
Awarded under the American Recovery and Reinvestment Act (OAS-RA-10-17,
September 2010). The audit concluded that the Department of Energy (Department) had
taken a reasonable, risk-based approach to the award and management of SEP grants.
Yet, as observed in other, similar grant programs, a number of impediments adversely
impacted SEP spending rates, and thus, had prevented the program from achieving
significant economic and energy savings benefits. In particular, compliance with
various regulatory requirements had slowed spending. The audit also identified issues
and challenges with preparing projected and reported energy savings for the SEP and
incomplete monitoring plans at the state level.

The Department of Energy's American Recovery and Reinvestment Act – Florida State
Energy Program (OAS-RA-10-12, June 2010). The audit identified weaknesses in the
implementation of SEP Recovery Act projects that have adversely impacted Florida's
ability to meet the goals of the SEP and the Recovery Act. Specifically, Florida used
about $8.3 million to pay for activities that did not meet the intent of the Recovery Act
to create new or save existing jobs. With the approval of the Department, Florida used
these funds to pay for rebates related to solar energy projects that had been completed



                                        9
                                                              Attachment 2 (continued)


prior to passage of the Recovery Act. The audit also reported that Florida had not
ensured that 7 of the 18 award requirements for Recovery Act funding had been passed
down to sub-recipients as required.

The Department of Energy's American Recovery and Reinvestment Act – Louisiana State
Energy Program (OAS-RA-10-09, May 2010). The audit identified certain risks
associated with Louisiana's strategy that could impact the State's ability to meet the
goals of the SEP and the Recovery Act. Specifically, Louisiana had not: established
controls to prevent double payments for Recovery Act energy conservation rebates to
individuals who may have been approved or received payment under an existing State
rebate program; developed contingency plans to replace projects in the event that they
do not receive timely National Environmental Policy Act approval to enable the
expenditure of Recovery Act funds before the April 2012 performance deadline
specified in the grant agreement; and, fully documented and monitored the status of past
internally managed SEP projects as required by both the Office of Energy Efficiency and
Renewable Energy and Louisiana policies and procedures.




                                      10
                      Attachment 3

MANAGEMENT COMMENTS




       11
     Attachment 3 (continued)




12
     Attachment 3 (continued)




13
     Attachment 3 (continued)




14
     Attachment 3 (continued)




15
     Attachment 3 (continued)




16
     Attachment 3 (continued)




17
     Attachment 3 (continued)




18
                                                                 IG Report No. OAS-RA-11-10

                             CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
